A
N
N
U
A
L

R
E
P
O
R
T

2
0
1
0




27
                                                    James Madison National Council Fund | September 30, 2010

                                                    FINA N C IAL STATE MENTS
                                                                                          STATEMENT OF FINANCIAL POSITION
                                                                                          ASSETS
                                                                                          Cash                                          $      40,185
                                                                                          Investments: (Note 2)
                                                                                             U.S. Treasury Market Based
                                                                                             Securities                                     3,232,857
                                                                                             Growth and Income Pool                           722,187
                                                                                          Total investments                                 3,955,044
                                                                                          Receivables:
                                                                                             Pledges (Note 3)                                 935,691
                                                                                             Accounts                                           2,296
                                                                                          Total Receivables                                   937,987
                                                                                          Property, Plant and Equipment
                                                                                          (Note 4)                                            169,073

                                                                                          Total assets                                  $ 5,102,289

                                                                                          LIABILITIES AND NET ASSETS
                                                                                          Accounts payable                              $      21,108
                                                                                          Accrued payroll and annual leave                     67,886
                                                                                          Total liabilities                                   88,994

                                                                                          Net assets (Note 5)
                                                                                             Unrestricted-Undesignated                       1,992,162
                                                                                             Unrestricted-Council designated
                                                                                             for projects                                    484,243
                                                                                             Temporarily donor restricted for
                                                                                             projects                                       2,536,890
                                                                                          Total net assets                                  5,013,295
 JAMES MADISON COUNCIL OF THE LIBRARY OF CONGRESS




                                                                                          Total liabilities and net assets              $ 5,102,289




                                                                                          These financial statements should be read only in connection
30                                                                                        with the accompanying notes to financial statements.
STATEMENT OF ACTIVITIES                                    STATEMENT OF CASH FLOWS
CHANGES IN UNRESTRICTED NET ASSETS                         Cash flows from operating activities:
Revenues                                                      Donations Received                     $ 1,495,623
Membership contributions                  $    1,321,051      Interest Received                              3,805
Interest                                          3,547       Cash paid to others                         (910,468)
Net unrealized gain/loss and                                  Cash paid to employees                      (727,338)
realized gain on investments (Note 2)           60,622        Net cash provided by (used by)
Imputed financing for cost subsidies                          operating activities                   $ (138,378)
(Note 6)                                         46,781
Dividends                                        4,867     Cash flows from investing activities:
Net assets released from restrictions          398,093        Investment in U.S. Treasury
Total revenues                            $ 1,834,961         Market Based Securities                $ (2,213,797)
                                                              Redemption of Investment in
Expenses (see Schedule B)                                     U.S. Treasury Market Based Securities       2,318,854

Personnel costs                                793,524        Purchases of Plant, Property,
                                                              & Equipment                                  (9,000)
Travel and transportation and
subsistence/support persons                     52,645        Net cash provided by (used by)
                                                              investing activities                   $      96,057
Other services                                 106,308
Books and library materials                    243,394
                                                           Net Increase (decrease) in Cash                 (42,321)
Exhibit opening events, receptions,
and Madison Council meetings                    313,463
                                                           Cash at beginning of year                        82,506
Contractual and personnel services              160,265
Office supplies, printing and materials          21,770    Cash at end of year                       $      40,185
Total expenses                            $ 1,691,369
                                                           Reconciliation of Changes in Net Assets
Increase/decrease in unrestricted                          to Net Cash From Operating Activities
net assets                                $     143,592
                                                           Change in Net Assets                      $    (28,938)
CHANGES IN TEMPORARILY RESTRICTED
NET ASSETS                                                 Adjustments to reconcile changes in
                                                           net assets to net cash provided from
Contributions                             $     169,705
                                                           operating activities
Temporarily restricted donations                55,858
Net assets released from restrictions         (398,093)    Non-cash gain on mutual fund investments (60,622)
Increase/decrease in temporarily                           Decrease in investment discount                     258
                                                                                                                      MADISON COUNCIL ANNUAL REPORT | 2010




restricted net assets                         (172,530)    Increase in pledges receivable                  (55,857)
                                                           Increase in accrued payroll and annual leave     19,404
Decrease in net assets                         (28,938)
                                                           Increase in accounts receivable                  (2,220)
                                                           Decrease in accounts payable                    (10,403)
Net assets at beginning of year               5,042,233

                                                           Total Adjustments                             (109,440)
Net assets at end of year                 $ 5,013,295

                                                           Net Cash provided by (used by)
                                                           Operating Activities                      $ (138,378)



                                                                                                                      31
                                                    James Madison National Council Fund | September 30, 2010

                                                    N OTES TO FINANCIAL STATE MENTS
                                                    NOTE 1 | REPORTING ENTITY AND SUMMARY OF                          C. Use Of Estimates
                                                    SIGNIFICANT ACCOUNTING PRINCIPLES                                 The preparation of the Fund’s financial statements in
                                                                                                                      conformity with generally accepted accounting principles
                                                    A. Description of Fund
                                                                                                                      requires management to make estimates and assumptions
                                                    The James Madison National Council Fund (JMNC Fund)
                                                                                                                      that affect the amounts reported in the financial statements
                                                    was initiated by the Librarian of Congress, accepted through
                                                                                                                      and accompanying notes. Actual results could differ from
                                                    a poll vote by the Library of Congress Trust Fund Board in
                                                                                                                      these estimates.
                                                    July 1989 and reaffirmed October 7, 1989. A gift of $100,000
                                                    from Robert Gwinn, Chairman of the Board of Encyclopedia
                                                                                                                      D. Contributions And Revenue Recognition
                                                    Britannica, established the Fund. The JMNC Fund is reported
                                                                                                                      The Fund records as contribution revenue amounts received in
                                                    in the Library of Congress gift and trust funds.
                                                                                                                      the form of cash, promises or pledges to give. Unconditional
                                                    The James Madison National Council is an advisory board           promises or pledges to give are recognized as a contribution
                                                    of business people and philanthropists that contribute ideas,     receivable. Multi-year pledges or promises due over a period
                                                    expertise, and financial backing to support the Library’s         of time are discounted to their present value, based upon
                                                    collections and programs. The Council is open to persons          prevailing interest rates, and recognized in the period of
                                                    from the private sector interested in advancing the Library’s     initial pledge.
                                                    outreach mission.
                                                                                                                      E. Income Tax
                                                    Significant accounting policies followed by the JMNC Fund
                                                                                                                      The JMNC Fund operates for the benefit of the Library of
                                                    are presented below.
                                                                                                                      Congress which is an instrument of the United States and, as
                                                                                                                      such, is not subject to income tax.
                                                    B. Basis of Accounting and Presentation
                                                    The Fund’s financial statements have been prepared on the
                                                                                                                      F. Investment Policy
                                                    accrual basis in accordance with generally accepted
                                                                                                                      The Library of Congress Trust Fund Board determines the
                                                    accounting principles.
                                                                                                                      investment policy for the Library’s trust funds. The policy
                                                    The Fund adopted financial reporting standards applicable         provides three options for investment of the JMNC Fund funds:
                                                    to not-for-profit organizations. The financial statements are     ■   a permanent loan with the U.S. Treasury
                                                    prepared in accordance with Financial Accounting Standards
                                                                                                                      ■   a pool of U.S. Treasury market-based securities
                                                    No. 117, and recognizes net assets based on the existence of
                                                    applicable restrictions limiting their use.                       ■   a private investment pool consisting of five stock funds
                                                                                                                          and one money market fund. The funds recommended by
                                                    Temporarily restricted net assets result from donor-                  the Library of Congress Trust Fund Board’s investment
                                                    imposed restrictions that permit the Fund to use or expend            committee and approved by the Board are:
                                                    the assets after the restriction has been satisfied. When a
                                                                                                                          •   Vanguard Institutional Index Fund
                                                    donor-imposed restriction is satisfied, that is, when a
                                                                                                                          •   Diamond Hill Investments
                                                    stipulated time restriction ends or the purpose of the
                                                                                                                          •   Dodge & Cox Income Fund
                                                    restriction is accomplished, temporarily restricted net assets
                                                                                                                          •   Dodge & Cox Stock Fund
                                                    are reclassified to unrestricted net assets and reported in
                                                                                                                          •   Harbor Capital Appreciation
                                                    the Statement of Activities as net assets released from
                                                                                                                          •   Artio International Equity
 JAMES MADISON COUNCIL OF THE LIBRARY OF CONGRESS




                                                    restrictions.
                                                                                                                          •   Lazard Emerging Markets Equity
                                                    Unrestricted net assets result from the receipt of                    •   Allianz Capital Appreciation Fund
                                                    unrestricted contributions, the expiration of donor-imposed           •   Neuberger & Berman Equity
                                                    restrictions on contributions, and changes in other assets            •   Pimco Funds
                                                    and liabilities. These assets are available to the Fund for use       •   Vaughn Nelson Investment Management
                                                    in support of current and future operations. The Library of
                                                                                                                      Investments in U.S. market-based securities are stated at
                                                    Congress provides support services to the James Madison
                                                                                                                      cost net of any unamortized premium or discount, which
                                                    National Council. The cost of these services are, by their
                                                                                                                      approximates market value at September 30, 2010. The
                                                    nature, indirect, difficult to quantify, and financed with
                                                                                                                      permanent loan is an interest bearing par value investment
                                                    appropriated funds of the Library. To the extent that these
                                                                                                                      which equals the market value. Stock and money market
                                                    services are provided, they are not considered operating
                                                                                                                      mutual funds are stated at current market value.
                                                    expenses of the James Madison National Council.




32
NOTE 2 | INVESTMENTS                                                    NOTE 5 | NET ASSETS
A. U. S. Treasury                                                       The JMNC Net Assets of $5,013,295 are classified as
An act of Congress approved March 3, 1925, and subsequently             Unrestricted-Undesignated, Unrestricted-Council Designated
amended, permits up to $10 million of trust funds to be                 for Projects or Temporarily Donor Restricted for Projects.
invested with the United States Treasury as a perpetual loan,           Of this total amount, $1,992,162 is classified as Unrestricted-
at a floating interest rate, adjusted monthly, but no less than         Undesignated. The balance of $3,021,133 consisting of
four percent per annum. Other investments with U.S. Treasury            $484,243 (Unrestricted-Council Designated for Projects)
were as follows:                                                        and $2,536,890 (Temporarily Donor Restricted for Projects)
                                                                        is earmarked for initiatives such as the purchase of special
                               Unamortized   Unamortized   Amortized
Investment        Par          Premium       Discount      Cost         acquisitions including overseas rare publications, the Junior
Non-Marketable,                                                         Fellows Summer Internship Program, the addition of materials
Market Based                                                            to the World Digital Library website, seed money for the 2012
                  $3,232,404   $0            $ (453)       $3,232,857
Government
Securities                                                              Civil War in American Memory Exhibition and an amount that
                                                                        is restricted to be used at the discretion of the Librarian of
                                                                        Congress for projects that arise that do not have funding or the
B. Mutual Funds
                                                                        time horizon to raise money for the project (see Schedule A).
The JMNC Fund invested $500,000 in the growth and
income pool (non-Treasury mutual fund investments) in                   Ending Net Assets includes undelivered orders of $223,932
1996 and has reinvested capital gains distributions and                 which are funds that have been obligated for budgetary
dividends since then. Market value of the growth and                    purposes, for goods and services not yet received for JMNC
income pool as of September 30, 2010, totaled $722,187.                 Fund operations and designated projects.

The net gain on investments of $60,622 consists of the
                                                                        NOTE 6 | IMPUTED FINANCING FOR COST SUBSIDIES
following: $27,914 of mutual fund capital gains distributions
and $32,708 unrealized gain on the growth and income pool.              An adjustment of $46,781 was recorded as an imputed
                                                                        financing source and a corresponding expense in the
NOTE 3 | PLEDGES                                                        accompanying financial statements. This adjustment
                                                                        recognizes the full cost of pensions and other health and life
Contributions of unconditional promises to give (pledges)
                                                                        insurance benefits incurred by the Office of Personnel
to the JMNC Fund are recognized as temporarily restricted
                                                                        Management during the employees’ active years of service.
revenue in the period received. They are recorded at their
present value using a market discount rate. Accretion of the
                                                                        NOTE 7 | EXPENSES BY FUNCTIONAL CLASSIFICATION
discount in subsequent years is also recorded as contribution
revenue. Outstanding pledges of $1,089,360 at September 30,             As permitted by SFAS No. 117, the Library has elected to
2010, were discounted through fiscal year 2018 at a market              present its operating expenses by natural classification in its
discount rate and are included in the statement of financial            Statements of Activities for the period ending September
position at their discounted present value of $935,691. The             30, 2010. The functional breakdown of these expenses is as
amounts due in future years at their current discounted                 follows (see Schedule B):
value are: $44,559 in fiscal year 2011; $44,332 in 2012; and
                                                                        Fiscal Year 2010 Expenses
$846,800 in fiscal year 2018. The Library regularly monitors            by Functional Classification                              Amount
the status of all pledges and adjusts accordingly; therefore            JMNC Fund Projects and Programs                       $    278,174
no allowance for uncollectible pledges has been established.            Members’ Specific Projects                               398,093
                                                                        Supporting Activities—Fundraising                        1,015,102
NOTE 4 | PROPERTY, PLANT, & EQUIPMENT                                   Total Expenses                                        $ 1,691,369
                                                                                                                                             MADISON COUNCIL ANNUAL REPORT | 2010




Property, plant, & equipment of $169,073 represents design              NOTE 8 | RETIREMENT PLANS
services for exhibit space in the Jefferson Building that are
being paid for by the Madison Council. The Library occasionally         Employees of JMNC Fund participate in two different
acquires property and equipment by direct gift or by purchase           retirement plans. Civil Service employees participate in the
from funds donated for a specific purpose or project. Because           Civil Service Retirement System (CSRS) or the Federal
property is generally not restricted for use to gift and trust          Employees’ Retirement System (FERS). FERS is the system
activities, capitalized property and equipment acquired                 in effect for most employees hired after December 31, 1983.
through gifts are recognized as donated revenue in the gift             In fiscal year 2010, the JMNC Fund paid approximately
and TFB funds and transferred to the Library’s appropriated             $68,832 to fund retirement benefits, excluding FICA taxes.
fund, once the costs are complete and the property is placed
in service. The work is not yet complete and will likely transfer       This information is an integral part of the accompanying
to the Library’s appropriated funds in fiscal year 2011.                financial statements.


                                                                                                                                             33
                                                    James Madison National Council Fund | Steering Committee

                                                    I NDEPEN DENT AUDITOR’S REPORT
                                                                                                                      SUMMARY
                                                                                                                      As stated in our opinion on the financial statements, we
                                                                                                                      concluded that the Fund’s financial statements for the year
                                                                                                                      ended September 30, 2010 are presented fairly, in all material
                                                    We have audited the accompanying statement of financial           respects, in conformity with accounting principles generally
                                                    position of the James Madison National Council Fund (the          accepted in the United States of America (GAAP). Our
                                                    Fund) as of September 30, 2010 and the related statements         consideration of internal control over financial reporting
                                                    of activities and cash flows for the year then ended. These       (including the safeguarding of assets) disclosed no material
                                                    financial statements are the responsibility of the Fund’s         weaknesses. The results of our tests of compliance with
                                                    management. Our responsibility is to express an opinion           certain provisions of laws and regulations disclosed no
                                                    on these financial statements based on our audit.                 instances of noncompliance that are required to be reported
                                                                                                                      herein under Government Auditing Standards issued by the
                                                                                                                      Comptroller General of the United States.

                                                                                                                      The following sections discuss our opinion on the Fund’s
                                                                                                                      financial statements, our consideration of the Fund’s internal
                                                                                                                      control over financial reporting, our tests of the Fund’s
                                                                                                                      compliance with certain provisions of applicable laws and
                                                                                                                      regulations, and Fund management’s and our responsibilities.
                                                                                                  February 25, 2011

                                                          To the Steering Committee                                   OPINION ON THE FINANCIAL STATEMENTS
                                                          James Madison National Council Fund                         We have audited the accompanying statement of financial
                                                                                                                      position of the Fund as of September 30, 2010 and the
                                                          We contracted with the independent public accounting        related statements of activities and cash flows for the year
                                                          firm of Kearney & Company to audit the Fund’s financial     then ended. These financial statements are the responsibility
                                                          statements. The firm is responsible for the attached        of the Fund’s management. Our responsibility is to express
                                                          auditor’s report and the opinion and conclusions            an opinion on these financial statements based on our audit.
                                                          expressed in that report.
                                                                                                                      We conducted our audit in accordance with auditing
                                                          We reviewed Kearney & Company’s report and related          standards generally accepted in the United States of America;
                                                          documentation. Our review was not intended to enable        the standards applicable to financial audits contained in
                                                          us to express, and we do not express, an opinion on the     Government Auditing Standards, issued by the Comptroller
                                                          Fund’s financial statements, conclusions on internal        General of the United States; and Office of Management and
                                                          control, or compliance with laws and regulations.           Budget (OMB) Bulletin No. 07-04, Audit Requirements for
                                                          Our review disclosed no instances in which Kearney &        Federal Financial Statements, as amended. Those standards
                                                          Company did not materially comply with U.S. generally       require that we plan and perform the audit to obtain
                                                          accepted government auditing standards.                     reasonable assurance about whether the financial statements
 JAMES MADISON COUNCIL OF THE LIBRARY OF CONGRESS




                                                                                                                      are free of material misstatement. An audit includes examining,
                                                                                                                      on a test basis, evidence supporting the amounts and
                                                                                                                      disclosures in the financial statements. An audit also includes
                                                                                                                      assessing the accounting principles used and significant
                                                          Karl W. Schornagel                                          estimates made by management, as well as evaluating the
                                                          Inspector General                                           overall financial statement presentation. We believe that our
                                                                                                                      audit provides a reasonable basis for our opinion.

                                                                                                                      In our opinion, the statement of financial position as of
                                                                                                                      September 30, 2010 and the related statements of activities
                                                                                                                      and cash flows for the year then ended September 30, 2010,
                                                                                                                      including accompanying notes, present fairly, in all material
                                                                                                                      respects, the financial position of the Fund as of September
                                                                                                                      30, 2010, and its activities and cash flows for the year then
                                                                                                                      ended, in conformity with GAAP.




34
Our audit was conducted for the purpose of forming an             merit attention by those charged with governance. A material
opinion on the financial statements referred to in the first      weakness is a deficiency or combination of deficiencies in
paragraph of this report. The information contained in            internal control such that there is a reasonable possibility
Schedules A and B is not a required part of the Fund’s            that a material misstatement of the entity’s financial
financial statements. Such information is subject to the          statements will not be prevented or detected and corrected
auditing procedures applied in the audit of the basic financial   on a timely basis.
statements. In our opinion, this information is fairly stated,
in all material respects, in relation to the basic financial      Our consideration of internal control over financial reporting
statements taken as a whole.                                      was for the limited purpose described in the preceding
                                                                  paragraphs and was not designed to identify all deficiencies
                                                                  in internal control that might be deficiencies, significant
INTERNAL CONTROL OVER FINANCIAL REPORTING                         deficiencies, or material weaknesses. We did not note any
                                                                  deficiencies in internal control that we consider to be material
In planning and performing our work, we considered the            weaknesses or significant deficiencies, as defined above.
Fund’s internal control over financial reporting and
compliance by obtaining an understanding of the design
effectiveness of the Fund’s internal control, determining         COMPLIANCE AND OTHER MATTERS
whether controls had been placed in operation, assessing
control risk, and performing tests of the Fund’s controls as a    As part of obtaining reasonable assurance about whether the
basis for designing our auditing procedures for the purpose       Fund’s financial statements are free of material misstatement,
of expressing our opinion on the financial statements and         we performed tests of the Fund’s compliance with certain
not to provide an opinion on the internal controls.               provisions of laws and regulations, noncompliance with which
Accordingly, we do not express an opinion on the                  could have a direct and material effect on the determination
effectiveness of the Fund’s internal control over financial       of financial statement amounts and certain other laws and
reporting and compliance.                                         regulations specified in OMB Bulletin No. 07-04, as amended.
                                                                  We limited our tests of compliance to these provisions; we
We limited our internal control testing to those controls         did not test compliance with all laws and regulations
necessary to achieve OMB Bulletin No. 07-04 control               applicable to the Fund. Providing an opinion on compliance
objectives that provide reasonable, but not absolute              with certain provisions was not an objective of our audit and
assurance, that:                                                  accordingly, we do not express such an opinion.

   1. Transactions are properly recorded, processed, and          The results of our testing disclosed no instances of
      summarized to permit the preparation of the financial       noncompliance or other matters that are required to be
      statements in accordance with GAAP, and assets are          reported under Government Auditing Standards and the
      safeguarded against loss from unauthorized                  requirements of OMB Bulletin No. 07-04, as amended.
      acquisition, use, or disposition

   2. Transactions are executed in compliance with laws
      governing the use of budget authority; Government-
      wide policies and laws identified in Appendix E of
                                                                  This report is intended solely for the information and use of
      OMB Bulletin No. 07-04, as amended; and other laws
                                                                  the Steering Committee, the Fund’s management, those
      and regulations that could have a direct and material
                                                                  charged with governance, the Library of Congress Office of
      effect on financial statements. We did not test all
                                                                  Inspector General, OMB, the Government Accountability
      internal controls relevant to operating objectives, as
                                                                  Office, and Congress, and is not intended to be, and should
      broadly defined by the Federal Managers’ Financial
                                                                                                                                     MADISON COUNCIL ANNUAL REPORT | 2010




                                                                  not be, used by anyone other than these specified parties.
      Integrity Act, such as those controls relevant to
      ensuring efficient operations.

A deficiency in internal control exists when the design or
operation of a control does not allow management or
employees, in the normal course of performing their assigned      February 16, 2011
functions, to prevent or detect and correct misstatements         Alexandria, Virginia
on a timely basis. A significant deficiency is a deficiency or
combination of deficiencies in internal control that is less
severe than a material weakness, yet important enough to




                                                                                                                                     35
                                                    James Madison National Council Fund | September 30, 2010

                                                    SU PPLE MENTA L IN FOR M ATION
                                                    SCHEDULE A
                                                    Schedule of Net Assets Available for Designation


                                                    Total Net Assets                          $ 5,013,295

                                                    Net assets restricted by donors
                                                    for projects                               (2,536,890)

                                                    Net assets designated by the
                                                    Council for projects                        (484,243)

                                                    Total restricted or designated
                                                    net assets                                  (3,021,133)

                                                    Net Assets Available
                                                    for Designation                           $ 1,992,162




                                                    SCHEDULE B
                                                    Schedule of Expenditures
                                                                                                       Fund       Members'    Supporting
                                                                                                Projects and       Specific   Activities—
                                                                                                   Programs        Projects   Fundraising         Total

                                                    Personnel costs                             $ 134,443        $ 82,496     $ 576,585     $ 793,524
                                                    Travel and transportation and
                                                    subsistence/support persons                         1,880          175       50,590         52,645

                                                    Other services                                       (37)            0       106,345       106,308

                                                    Books and library materials                         3,765     230,633          8,996      243,394

                                                    Exhibit Opening Events, Receptions,
                                                    and Madison Council Meetings                       25,700       71,660       216,104       313,463
 JAMES MADISON COUNCIL OF THE LIBRARY OF CONGRESS




                                                    Contractual and personnel services                 112,424       13,129       34,712       160,265

                                                    Office supplies, printing and materials                 0            0        21,770        21,770

                                                    Totals                                      $   278,174      $ 398,093    $ 1,015,102   $ 1,691,369




36
